No. 20-165
IN THE

Supreme Court of the United States
In re the Paternity of B.J.M.:
Angela L. Carroll,
Petitioner,
v.
Timothy W. Miller,
Respondent.
On Petition For Review To The
Wisconsin Supreme Court
REPLY BRIEF FOR THE PETITIONER
Brandon M. Schwartz
Counsel of Record
Michael D. Schwartz
SCHWARTZ LAW FIRM
600 Inwood Avenue N.
Suite 130
Oakdale, MN 55128
(651) 528-6800
brandon@mdspalaw.com
Counsel for Petitioner

i

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ....................................... ii
REPLY BRIEF FOR THE PETITIONER...............
I. CERTIORARI IS WARRANTED BY THE BROAD
IMPACT THE WISCONSIN SUPREME COURT’S
ORDER WILL HAVE ...................................... 1-6
CONCLUSION ........................................................ 6

ii

TABLE OF AUTHORITIES
Page(s)
CASES
Caperton v. A.T. Massey Coal Co.,
556 U.S. 868 (2009) .................................... 1, 3, 4, 5
In re Murchinson,
349 U.S. 133 (1955) ................................................4
Tumey v. Ohio,
273 U.S. 510, 523 (1927) ....................................4, 5
STATUTES
Wis. Stat. § 757.19 .......................................................5

1

REPLY BRIEF FOR THE PETITIONER
With over 1.73 billion daily active Facebook users, over
500 million daily active Instagram users, over 166 million
daily active Twitter users, and over 690 million LinkedIn
users, the legal implications of this case are not rare or
extreme, but rather this case will have broad nationwide
impact. Denying review will have a dramatic impact on the
current judges, attorneys and parties utilizing social media
as well as our Nation’s future judges, attorneys and parties,
all of whom will be at least as connected to social media as
we currently are. The Wisconsin Supreme Court Order has
created confusion, not clarity, on what constitutes a Due
Process Clause violation. When there were no ex parte
communications on social media (or otherwise) between
party and judge, when the judge was not subjectively bias,
and when the opposing party did not assert that he was
treated unfairly, the Wisconsin Supreme Court’s drastic
expansion of Caperton v. A.T. Massey Coal Co., 556 U.S.
868, 883-84 (2009) and Due Process Clause precedent
warrants review by this Court.
Timothy M. Miller (“Miller”) seeks to minimize the
astounding implications of the Wisconsin Supreme Court’s
decision by arguing that Capterton was not expanded, but
rather the facts in this case were as extreme as the facts in
Capterton. To the contrary, the facts of this case do not rise
to the level of extreme conduct and with billions of users,
social media is certainly not rare. This case is an ordinary
judicial recusal question that should have been decided
based on state policy, not Due Process Clause precedent.
This Court’s precedent mandates there must be more to
establish a Due Process Clause violation. Indeed, a judge:
(i) having a direct, personal and substantial pecuniary
interest in the case; or (ii) acting as the complainant and
prosecutor; or (iii) being the benefactor of $3,000,000.00 in
campaign donations present dramatically different
circumstances than this ordinary and benign social media
“friendship”.
Review is necessary here to inform judges whether they
must sign-off of all social media accounts and refrain from

2

having any social connections, electronically or in person.
The Wisconsin Supreme Court’s Opinion, given no
subjective bias and no allegation of unfair treatment, is a
bright-line rule not only effectively prohibiting the judicial
use of social media, but also barring any social
relationships by judges with anyone appearing in their
courtroom.
Absent becoming hermits, following the
Wisconsin Supreme Court’s Opinion, judges will be
bombarded with Due Process Clause violations based on
social media connections, attending the same church with
a litigant, or participating in a continuing legal education
seminar with an attorney.
This case presents a fact pattern which is being played
out in social media platforms across the Country. Judges
are people-people that are on social media. Social media
helps judges maintain transparency with the communities
they serve. Social media is a driving force (if not the
leading force) in election campaigns and judges, most of
whom are elected officials, most utilize this inexpensive
platform in their campaigns. If a Due Process Clause
violation occurs in each case in which a judge has any social
media connection with a party or attorney, given the
widespread use of social media, we will not have anyone
left to preside over cases absent each judge logging off
entirely from social media. We have long presumed that
judges will follow the law regardless of their personal
views. Simply being “friends” on social media should not
overcome that presumption constituting a Due Process
Clause violation particularly in the absence of subjective
bias and the absence of any unfair treatment.
Certiorari should, respectfully, be granted.
I.

CERTIORARI IS WARRANTED BY
THE BROAD IMPACT THE
WISCONSIN SUPREME COURT’S
ORDER WILL HAVE.

Regardless of whether one agrees with the Wisconsin
Supreme Court’s Order, its importance to our County is
undeniable. Tens of millions of Americans, judges,
attorneys and litigants included, utilize social media in

3

their day-to-day lives. And social media is here to stay.
Granting review and rendering a decision providing
clarity on this important Due Process issue is necessary to
guide our legal system as to whether Caperton is as
expensive as the Wisconsin Supreme Court ruled or is
truly limited to extreme circumstances as this honorable
Court intended.
Miller argues that the Wisconsin Supreme Court did
not expand Caperton, but rather applied the substantially
different fact pattern of Caperton to this case. This
argument is misplaced.
In Caperton, one of the parties in the case spent $3
million to help elect a justice to the Virginia Supreme
Court that would determine that party’s $50 million
appeal. 556 U.S. at 872-73. That $3 million donation was
more than all other supporters combined and had a
“significant and disproportionate influence” on the
justice’s election in a close race. Id. at 873, 874. Angela
L. Carroll (“Carroll”) did not contribute any money to
Judge Bitney’s election campaign and Judge Bitney made
clear that the Facebook “friendship” with Carroll had no
influence, let alone a disproportionate influence, on his
decision. Pet. App. at 10a-11a. Miller acknowledged the
same-he did not, and could not, allege he was treated
unfairly by Judge Bitney. Carroll and Judge Bitney had
no private messages, there were no comments or likes on
their publically available Facebook profiles regarding the
case, and the record is barren that Judge Bitney ever even
saw Carroll’s Facebook page, pictures or comments. How
likes on Judge Bitney’s Facebook Bible posts by one of his
more than 2,000 plus friends could possibly rise to the
extreme situation of donating $3 million to help elect a
judge that would decide your appeal goes without rational
explanation by Miller or the Wisconsin Supreme Court.
While Caperton opened the door to Due Process
Clause claims alleging something less than actual bias,
this opening was more crevice than canyon. Having $3
million donated to your judicial election campaign is as
close to actual bias as one can get. Having one of your
thousands of Facebook “friends” appear before you is not
on the same planet, let alone the same playing field as

4

Caperton. Such a conclusion is supported by the
precedent leading up to this Court’s Caperton decision
establishing that Caperton was not intended to be the Due
Process Clause canyon the Wisconsin Supreme Court has
pushed it down.
In Tumey v. Ohio, 273 U.S. 510 (1927), the mayor,
who received one-half of the share of all fines collected
and paid, presided over the trial of an individual accused
of violating the Prohibition Act of the State of Ohio.
Because the mayor was paid from the fines he himself
imposed, this Court found a Due Process Clause violation.
Id. at 523.
In re Murchinson, 349 U.S. 133 (1955) presented the
issue of whether a judge could be the “complainant,
indicter and prosecutor” in a contempt case. A Due
Process Clause violation was found because “no man can
be a judge in his own case”. Id. at 136.
While the judge in Caperton did not have a direct
financial interest in the case he was presiding over, it
certainly was as close as one could get. Knowing that a
party appearing before you had donated $3 million dollars
to your election campaign certainly creates a significant
threat of actual bias or prejudgment. Caperton, 556 U.S.
at 883-84. If you rule against the party will your
campaign coffers run dry next election cycle? Having a
litigant as one of thousands of Facebook “friends” is a far
cry from the risk created by receiving $3 million in
election campaign donations and then having to affirm or
reverse a $50 million verdict against the donor.
Here, there was not a great risk of actual bias. Miller
himself acknowledged that he was not treated unfairly.
And there are no facts in the record that Judge Bitney
knew of or even viewed any of Carroll’s Facebook activity.
If a party makes a $3 million donation to your election
campaign you would know about it. There is not a single
fact in the record that supports the argument that having
one of Judge Bitney’s two thousand Facebook “friends”
click “like” on a few of his daily Facebook Bible verse posts
had any impact on this case, let alone posed such a risk of
actual bias or prejudgment that it must be forbidden
pursuant to the Due Process Clause.

5

Chief Justice Roberts warned in Caperton that some
might use this open door to turn routine judicial recusal
question into Due Process Clause claims. 566 U.S. at 899900. “Matters of kinship, personal bias, state policy,
remoteness of interest would seem generally to be matters
merely of legislative discretion.” Id. at 892 quoting
Tumey, 273 U.S. at 523. So too should have been this
common recusal issue of a “friendship with a party or
lawyer”. Caperton, 566 U.S. at 892. Instead, the
Wisconsin Supreme Court drove a semi-truck through
Caperton’s open door and took this common recusal issue
and turned it into a Due Process Clause violation. Given
the broad use of social media and the dramatic expansion
of Caperton by the Wisconsin Supreme Court, granting
certiorari here is imperative. Judicial recusal rules based
on “friendship”, social media or otherwise, should be
resolved based on state policy and prudence, not the
Fourteenth Amendment.
In that regard, Miller asserts that there are
independent state-law grounds for disqualifying Judge
Bitney. Importantly, the Wisconsin Supreme Court did
not rule that Judge Bitney was disqualified under any
state-law grounds, but instead on this issue of first
impression held that the Facebook “friendship”
constituted a Due Process Clause violation. Pet. App. at
5a. Indeed, the Wisconsin Supreme Court even noted that
Miller did not bring a claim for judicial disqualification
pursuant to Wis. Stat. § 757.19 or file an ethics complaint
with the Office of Lawyer Regulation. Pet. App. at 10, n.
17. This matter was decided strictly on the Due Process
Clause and an improper expansion of this Court’s
precedent. Pet. App. at 5a, 15a-17a.
The time for resolving the issue of whether a social
media connection violates the Due Process Clause is now.
Social media connections are not the “rare instance” and
this case does not present “extreme facts”.

6

CONCLUSION
Carroll respectfully requests the honorable United
States Supreme Court grant her petition for a writ of
certiorari.
Respectfully submitted,
Brandon M. Schwartz
Counsel of Record
SCHWARTZ LAW FIRM
600 Inwood Avenue N.
Suite 130
Oakdale, MN 55128
(651) 528-6800
brandon@mdspalaw.com
Michael D. Schwartz
SCHWARTZ LAW FIRM
600 Inwood Avenue N.
Suite 130
Oakdale, MN 55128
(651) 528-6800
brandon@mdspalaw.com
Counsel for Petitioner
September 18, 2020

